HHS/OIG-Audit--"Report on Follow-up Audit of the Accumulated Surplus at Oregon's Internal Service Funds, (A-10-93-00011)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Follow-up Audit of the Accumulated Surplus at Oregon's Internal Service Funds," (A-10-93-00011)
September 14, 1993
Complete
Text of Report is available in PDF format (1.67 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our follow-up audit of the accumulated surplus at Oregon's Internal Service
Funds (ISF). We found that the State of Oregon had not implemented the recommendations of two previous ISFs audits by the
Office of Inspector General. Consequently, the State of Oregon's ISFs had an accumulated surplus at June 30, 1991 of $64.4
million, an increase of $14.5 million (29 percent) since the first audit. We have estimated the Federal share of the total
accumulated surplus at June 30, 1991 to be approximately $12.1 million. The surplus represented the excess of revenues
generated from services and products provided over expenses incurred by ISFs. We recommended that the State of Oregon refund
the $12.1 million Federal share of the accumulated surplus and adjust billing rates at least annually to eliminate any
surplus or deficit.